         Office of the Inspector General
Corporation for National and Community Service

                     Semiannual Report to the Congress
                                      for the period
                     October 1, 1997 - March 3 1, 1998
                                      Fiscal Year 1998
                                   Semiannual Report No. 1




As required by the Inspector General Act of 1978, as amended, this report describes our activities
and accomplishments for the first half of fiscal year 1998. Section 5 of the Act requires that the
Corporation's Chief Executive Officer submit this report to the Congress and the Corpcjration's
Board of Directors within 30 days of its receipt.
                                                                              TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


IG ACT REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     2


AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


INVESTIGATIONS                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14


REVIEW OF LEGISLATION AND REGULATIONS                                                . . . . . . . . . . . . . . . . . . . . . . . . . . 20


TABLES

     Table I . Inspector General Reports With Questioned Costs . . . . . . . . . . . . . . . 25

     Table I1     --       Inspector General Reports With Recommendations
                           That Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

     Table I11 . Summary of Audits with Overdue Management Decisions                                                    . . . . . . . . 27

     Table IV . Reports Described in Prior Semiannual Reports
                Without Final Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           28

     Table V       . Status of      Recommendations On Internal
                           Corporation Management Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
                                                    EXECUTIVE SUMMARY

AUDITS                                              INVESTIGATIONS
During this semiannual reporting period, we         During this semiannual reporting period we
issued nine reports including the final report on   processed 68 Hotline calls, opened 23
our review of the Corporation's training and        investigative actions, and completed 20
technical assistance agreements.                    investigative actions. We also referred four
                                                    matters to the Department of Justice for
The report on training and technical assistance     prosecutive determination (page 14).
agreements revealed deficiencies in the
Corporation's solicitation and selection process,   We referred four reports to Corporation
oversight and monitoring, granting of cost          management documenting various conditions
extensions, and documentation. During fiscal        we found that were conducive to fraud, waste,
year 1997 the Corporation spent approximately       or abuse. The reports were provided to assist
$7.8 million for training and technical             management in increasing Government integrity
assistance efforts (page 3).                        and improving program operations and
                                                    effectiveness. The referrals to management
Our analysis of 60 previous audits and reviews      included      improper       education     award
of Corporation grants, covering the period from     certifications, alleged travel abuses, and misuse
fiscal year 1995 through fiscal year 1997,          of Corporation resources (pages 14 through 18).
details findings of difficulties experienced by
new grantees in administering Corporation           OTHER ASPECTS OF OUR MISSION
funds (page 4).
                                                    Review of Legislation and Regulations. We
Seven reports on Corporation grant programs         reviewed and commented on the Corporation's
were issued during the period. Their combined       proposed draft legislation to reauthorize the
total questioned costs exceeded $1.2 million        Corporation's programs (page 20). We also
dollars (page 7).                                   commented on revisions to its regulations on
                                                    implementing the statutorily imposed five
AUDIT RESOLUTION                                    percent cap on Federal reimbursement of
                                                    grantee administrative costs (page 22).
The Corporation has made progress reducing
unresolved audit reports. The management            Annual Financial Statement Audit. The
decisions backlog was reduced from 25 to four,      Corporation has embarked on a plan to correct
and reports pending final action were reduced       deficiencies which have, heretofore, precluded
from 23 to 18 (page 11).                            the audit of its financial statements @age 6).

In response to OIG Report 97-30, Audit of the       Working to Improve Program Management.
Corporation for National Service's Gift Fund,       OIG and Corporation management jointly
the Corporation decided not to report its           sponsored appropriations law training for OIG
$13,000 over expenditure of unrestricted gift       staff and senior Corporation management
funds as a violation of the Antideficiency Act.     (page 24).
OIG disagrees with the Corporation's position
(page 12).
                          IG ACT REPORTING REQUIREMENTS

This table cross-references the reporting requirements prescribed by the Inspector General Act
o f 1978, a s amended, to the specific pages in the report where they are addressed.


   Requirement                                                                          Page

 Section 4 (a)(2)     Review of legislation and regulations.                              20

 Section 5 (a)(l)     Significant problems, abuses, and deficiencies related to the
                      administration of Corporation programs and operations.          Throughout

 Section 5 (a)(2)     Recommendations with respect to significant problems,
                      abuses, and deficiencies found in the administration of
                      Corporation programs and operations.                            Throughout
 Section 5 (a)(3)     Prior significant recommendations on which corrective
                      action has not been completed.                                    28,30

 Section 5 (a)(4)     Matters referred to prosecutive authorities.                      14, 19

 Section 5 (a)(5)     Summary of instances where information was refused.             None this
                                                                                       period
 Section 5 (a)(6)     List of audit reports by subject matter showing dollar value
                      of questioned costs and recommendations that funds be put
                      to better use.                                                      11

 Section 5 (a)(7)     Summary of each particularly significant report.                Throughout
 Section 5 (a)@)      Statistical table showing number of reports and dollar value
                      of questioned costs.                                                25
 Section 5 (a)(9)     Statistical table showing number of reports and dollar value
                      of recommendations that funds be put to better use.                 26
 Section 5 (a)(10)    Summary of each audit issued before this reporting period
                      for which no management decision was made by end of
                      reporting period.                                                   27
 Section 5 (a)(l 1)   Significant revised management decisions.                        None this
                                                                                        period
 Section 5 (a)(12)    Significant management decisions with which the Inspector
                      General disagrees.                                                  12
The Office of the Inspector General Audit Section is responsible for auditing grants, contracts,
and cooperative agreements funded by the Corporation. The Audit Section reviews Corporation
operations and ensures that financial, administrative, and program aspects of Corporation
operations are examined. It also conducts the audit of the Corporation's annual financial
statements, including evaluation of the Corporation's internal accounting controls. All audit
reports are referred to Corporation management for action or information. Additionally, the
Audit Section advises and assists the Corporation in resolving audit recommendations. A list
of all reports issued by the Audit Section during this period can be found on page 1 1.


OIG REPORTS ON CORPORATION FINANCIAL MANAGEMENT

Review of Training and Technical Assistance Agreements (OIG Audit Report 98-01)

We provided the Chairman of the Subcommittee on Oversight and Investigations, House
Committee on Education and the Workforce, information on the Corporation's authority for
awarding training and technical assistance agreements, the purpose of the agreements, the
procedures used by the Corporation in awarding the agreements and providing oversight, and the
guidelines for granting cost extensions. We reported that

    The Corporation has the authority to enter into cooperative agreements to provide training
    and technical assistance to national service programs, and that the agreements reviewed were
    supportive of Corporation programs and aimed at enhancing the effectiveness of the
    individual entities performing these programs. However, most of these cooperative
    agreements were rather broad in scope. Several called for the provision of "a wide range of
    services designed to meet project and CNCS needs...." Other agreements require the
    awardee to "provide rapid response technical assistance to AmeriCorps grantees....              I'




    Given the indeterminate nature of these services, we recommended that the Corporation use
    indefinite delivery, indefinite quantity, task order contracts rather than cooperative
    agreements to obtain these services.

    The Corporation did not have formal policies and procedures for documenting its selection
    and award process, or for monitoring the activities carried out under the agreements. As a
    result, the content of the Corporation's Official files for these agreements varied
    considerably. Only one of the 14 Official files reviewed' contained a complete set of



 h he sample was selected from a listing of 33 agreements provided to the Subcommittee by the Corporation.
   documentation related to the solicitation and selection of the award recipient, and only three
   of the 14 contained evidence of what could be characterized as Corporation oversight of, or
   involvement in, the activities of the awardees. Further, while the reasons for cost extensions
   were generally appropriate, none of the files reviewed contained documentation explaining
   the extent of the Corporation's review of the amounts proposed in requests for cost
   extensions.

    We recommended that the Corporation develop and implement policies and procedures to
    document the solicitation and selection processes used to award training and technical
    assistance agreements and to assure their proper oversight.

In its comments on a draft of the report, the Corporation disagreed with our recommendation to
use contracts and plans to continue to use cooperative agreements to obtain these services. The
Corporation stated that it would implement new policies and procedures over awarding and
monitoring these agreements. Because we regard this as a high risk area, we will continue to
monitor Corporation efforts to improve controls over these agreements and other procurement
activities.

Summary of Results of OIG Audits and Reviews of Corporation Grants,
Fiscal Year 1995 through Fiscal Year I997 (OIG Audit Report 98-22)

To assist the Corporation in its efforts to improve its monitoring and oversight of grantees, we
summarized the results of our audits and reviews of Corporation grants conducted in fiscal years
1995 through 1997. During this three year period, OIG issued 60 reports' on Corporation
grants: concentrating our efforts on ArneriCorps programs because these programs represented
the largest percentage of grant dollars awarded by the Corporation. Furthermore, because
AmeriCorps was a new service program, we identified it as higher risk than service programs
carried out under the Domestic Volunteer Service Act (DVSA), which have been in place a
number of years.

Overall, our audits and reviews show that many of the new programs experienced difficulty in
administering Corporation funds. For example, we identified questioned costs or other findings
at 89 percent of the AmeriCorps grantees we examined (39 of 44). Further, when we classified
the findings for AmeriCorps grantees by the 12 categories listed below, we found that 64 percent
of the grantees (28 of 44) had findings in three or more categories. The problems we found
ranged from specific instances of noncompliance with grant provisions (e.g., the requirement to
pay living allowances in uniform increments) to more general conditions, such as failure to


2~orty-fourof these reports relate to AmeriCorps programs (primarily national direct grants); 13 to grants awarded
by the former Commission on National and Community Service; and three to grants awarded under the DVSA.

3 ~ o soft the Corporation's grants take the form of cooperative agreements because the Corporation expects to have
substantial involvement in the operation of the programs.
maintain adequate financial systems or management controls to properly administer Corporation
grant funds.

To address these conditions, we recommended that the Corporation orient its training and
technical assistance to address the problems identified in the summary that we have consistently
found at grantees. We also recommended that the Corporation establish consistent requirements
for monitoring its grantees and analyze the results so that grantees experiencing difficulties are
provided appropriate training and technical assistance.

The following is a synopsis of the findings for all 60 reports broken down by 12 common
categories. The summary report also included a matrix identifying the findings at each grantee.


                                          Summary of Findings

Questioned costs - We questioned costs at 61 percent (37 of the 60) of the grantees. Federal
costs questioned totaled $4.6 million (about 6 percent of the finds awarded to these grantees).

System and controls - We concluded that accounting systems and management controls were
inadequate to report grant expenditures and safeguard Federal funds at 53 percent of the grantees
(32 of the 60). We also found that segregation of duties was inadequate among those who
perform accounting procedures and handle assets at five of the 60 grantees.

Inaccuratddelinquent Financial Status Reports (FSR) - One-third of the grantees (2 1 of the
60) experienced problems with their FSRs. Specifically, three grantees (five percent) did not
submit one or more of the required FSRs, 10 grantees (17 percent) submitted their FSRs late, and
12 grantees (20 percent) submitted FSRs which contained error^.^

Inadequate timekeeping - We found that 51 percent (31 of the 60) of the grantees had an
inadequate system for recording staff and/or AmeriCorps Members' time, or that the grantees'
systems did not have the capacity to allocate staff time between different programs and activities.

Subrecipient monitoring - We reported that over one-third of our grantees did not provide
adequate oversight of subrecipients (22 of the 60).

Match not methot trackedhzsupported - One-third of the grantees (2 1 of the 60), had not met
the minimum match requirement, or the grantee, due to inadequate supporting documentation,
was unable to demonstrate that the match had been met.




4 ~ h detail
       e     totals to more than 21 grantees because several grantees had multiple problems with their FSRs.

                                                       5
Administrative cost issues/outdated indirect cost rates - Over one-third of our grantees charged
administrative costs to the grant as program costs, or charged administrative costs to the grant
based on an unapproved or outdated indirect cost rate (22 of the 60).

Living allowance/stipend - At eight of the 60 grantees, we found that AmeriCorps Member
stipends were not paid in accordance with Corporation requirements (e.g., the grantee paid
Members an hourly wage based on number of hours served instead of a living allowance).

No comparisons of budget to actual - At four of the 60 grantees, we found that the grantee did
not perform a comparison of budgeted to actual expenditures, and expenditures were not
recorded in accordance with budgeted line items.

Improper drawdowns/interest not remitted - At four of the 60 grantees, we found that the
grantees drew down Corporation funds in an amount which exceeded their immediate cash
needs, and in some cases did not remit interest on excess grant funds they held as required.

Inappropriate service - At four of the 60 grantees, we found that an AmeriCorps Member
performed a prohibited program activity (e.g., a Member performed advocacy work which
violated the Corporation's prohibition on lobbying/advocacy).

lopercent minimum training not met - At three of the 60 grantees, we found that the grantee
did not spend the required minimum ten percent of funds for training and educational materials
and services for participants.


ANNUAL FINANCIAL STATEMENT AUDIT

On March 18, 1998, the Corporation issued a Plan for Correcting Auditability Assessment
Findings to correct management controls deficiencies which have heretofore precluded the
performance of financial statement audits required by the Government Corporation Control Act,
as amended. The plan outlines the actions the Corporation will take to correct material
management control weaknesses and other reportable conditions identified in several OIG
reports5 (see Table V, Status of Recommendations on Internal Corporation Management Issues,
page 30). As provided for under 3 1 U.S.C. 9 105, we have engaged KPMG Peat Marwick LLP
to assess the Corporation's corrective actions and the state of its management controls systems
and to perform an audit of the Corporation's fiscal year 1997 Statement of Financial Position.
We currently plan to report on the management controls assessment in June 1998 with the results
of our audit of the fiscal year 1997 Statement of Financial Position to follow in September 1998.



'including OIG audit reports 96-36, Audit of CNS Fiscal Year 1994 Financial Statements, March 15, 1996; 96-38,
Report on the Results of the Auditability Study, March 29, 1996; 97-27, Audit of the National Service Trust Fund
Fiscal Year 1995 and 1994 Financial Statements, March 10, 1997.
REPORTS ON AUDITS AND REVIEWS OF CORPORATION GRANTS

We issued seven reports on Corporation grants during this period. As illustrated in the table
below, our work has revealed issues in several areas. A brief summary of each report follows
the table.




   Audits
   National Council of La Raza
   (OIG Report 98-03)                                      $934,988         $44,546
   Children's Health Fund
   (OIG Report 98-04)                                      $438,223        $187,456
   Urban Schools Service Corps
   (OIG Report 98-05)                                 $3,122,164            $87,055
   West Virginia Conservation and Service Corps
   (OIG Report 98-06)                                 $2,673,12 1          $9 19,907
                                                      --




   Washington Conservation Corps
   (OIG Report 98-07)                                 $5,2 10,349                $0
   Red Lake Tribal Council
   (OIG Report 98- 10)                                     $866,607              $0

   Reviews

   Notre Dame Mission Volunteer Program
   (OIG Report 98-1 1)                            1        $813,022   I      $2,605

       Total Questioned Costs (Federal & Non-Federal)                     $1,241,569


Each of our reports on Corporation grants contains recommendations for correcting the
deficiencies identified in the reports. Typically, the recommendations are for the grantees to
reimburse questioned costs and to establish and implement policies and procedures to prevent
future instances of non-compliance and improve internal controls.

In addition, based on the results of our audits, we recommended that the Corporation improve
its monitoring of grantees to prevent and detect these conditions and that it provide specific
financial training and technical assistance to grantees.
AUDITS                                                       costs were claimed by another site for
                                                             transactions occurring after the end of the
                                                             funding period.
National Council of La Raza (OIG 98-03)
                                                         In addition, we questioned $187,456 of the costs
We audited the funds awarded by the Corporation to
                                                         claimed under the award.
the National Council of La Raza (cooperative
agreement number 95ADNDC012) for the period
                                                         In its response to the report the Children's Health
August 1, 1995 through December 3 1, 1996. The
                                                         Fund agreed that their staff did not prepare personnel
audit disclosed that La Raza
                                                         activity reports as required. The Children's Health
    claimed costs in excess of actual costs incurred;    Fund also cited difficulty in understanding the
                                                         grant's financial management and reporting
    charged unsupported or unallocable costs to the      requirements as contributing to their problems
    award; and                                           administering the grant.
    paid Members' living allowances as a wage at
    two operating sites.
                                                         New Jersey Department of Education, Urban
In addition, we questioned $44,546 of the costs          Schools Service Corps ( O K 98-05)
claimed under the award.
                                                         We audited the finds awarded to the State of New
                                                         Jersey to establish the Urban Schools Service Corps
Children's Health Fund (OIG 98-04)                       (USSC) by the former Commission on National
                                                         and Community Service (award number
We audited the funds awarded by the Corporation to       92NMSTNJ0005) for the period from August 1,
the Children's Health Fund (award number                 1992 through December 3 1, 1995.
94ADNNY005) for the period from July 1, 1994
through December 3 1, 1995.                              The audit was performed to determine whether
                                                         financial reports prepared by USSC presented fairly
The audit disclosed that                                 the financial condition of the award and the award
                                                         costs reported to the Corporation were documented
    personnel activity reports (time sheets) were not    and allowable in accordance with the terms and
    prepared by staff to identify charges allocable to   conditions of the award.
    the grant for salaries and benefits as required;
                                                         The audit disclosed that
    costs for grant expenditures were recorded based
    on a percent of the approved budget amount                USSC did not submit financial reports as
    rather than on actual expenses;                           required by the Common Rule under OMB
                                                              Circular A- 102;
    subgrantee accounting records did not segregate
    Federal funds from funds of other sources;                USSC and its subrecipients lacked adequate
                                                              controls over their financial management
    subgrantee matching costs claimed were not                systems;
    verifiable from accounting records;
                                                              USSC did not maintain adequate records for in-
    no written procedures were developed to                   kind contributions;
    identify unallowable or unallocable costs prior
    to claim for reimbursement;                               administrative costs charged to the grant
                                                              exceeded the maximum Federal share; and
    records of Member service hours completed at
    one site were not maintained; and                         USSC did not effectively monitor the hours of
                                                              service performed by the participants.
In addition, we questioned $87,055 of the costs         Based on the audit, we questioned $919,907 of the
claimed under the award. We recommended that the        costs claimed under the award.
Corporation consider providing USSC with training
and technical assistance on administering their         In its response to the report WVDE generally agreed
AmeriCorps program.                                     with the internal control and compliance findings but
                                                        disagreed with the questioned costs.
In its response to the report the New Jersey
Department of Education agreed with the internal
control findings reported but generally disagreed       State of Washington, American Conservation and
with the questioned costs.                              Youth Service Corps (OZG 98-07)

                                                        We audited the costs claimed by the State of
West Virginia Department of Education, American         Washington to the Corporation and its predecessor,
Youth and Conservation Corps                            the Commission on National and Community Service
(OIG 98-06)                                             (award number 92COSTWA0027) for the period
                                                        July 15, 1992 through November 10, 1994.
We audited the funds awarded by the former
Commission on National and Community Service to         The audit was performed to determine whether
the West Virginia Department of Education (WVDE)        financial reports prepared by the Employment
to establish the American Youth and Conservation        Security Department (ESD) of the State of
Corps (award number 92COSTWV0028) for the               Washington presented fairly the financial condition
period from July 15, 1992 through December 30,          of the award, whether ESD's internal control
 1995.                                                  structure was adequate to safeguard Federal funds,
                                                        and whether award costs reported to the Corporation
The audit was performed to determine whether            by ESD were documented and allowable in
fmancial reports prepared by WVDE presented fairly      accordance with the terms and conditions of the
the financial condition of the award, and whether the   award. Furthermore, the audit assessed whether ESD
award costs reported to the Corporation were            had adequate procedures and controls to ensure
documented and allowable in accordance with the         compliance with Federal laws, applicable regulations
terms and conditions of the award.                      and award conditions.

The audit disclosed that                                No costs were questioned as a result of the audit.
                                                        However, the audit disclosed that ESD lacked
    costs claimed under the award exceeded the          adequate controls over the preparation and
    maximum share of Federal costs allowed;             completion of financial reports. In addition, ESD did
                                                        not submit the required program and fmancial reports
    $152,080 of the claimed costs were not              on a timely basis.
    adequately supported by source documentation;
                                                        In its response to the report, ESD concurred with the
    two subrecipients, West Virginia Citizens           findings and recommendations and stated that it
    Conservation Corps and McDowell County              would implement corrective actions.
    Citizens Conservation Corps, did not maintain
    adequate financial management systems in
    accordance with OMB Circular A- 110;                Red Lake Tribal Council (OIG 98-1 0)

    most participants were not provided with post-      We audited the funds awarded by the Corporation to
    service benefits as required; and                   the Red Lake Tribal Council (Red Lake) for the
                                                        AmeriCorps program (cooperative agreement
    WVDE did not submit all required reports and        Number 95ASTRMN03) for the period September 1,
    did not adequately monitor the subrecipients         1995 through November 30, 1996.
    under the grant.
The audit was performed to determine whether             REVIEWS
financial reports prepared by Red Lake presented
fairly the financial condition of the award, the         Notre Dame Mksion VolunteerProgram
systems of internal control structure were adequate to   (OIG 98-11)
safeguard Federal funds, and the award costs
reported to the Corporation were documented and          We performed a limited review on the amounts
allowable in accordance with the terms and               ($813,022) claimed by the Notre Dame Mission
conditions of the award. Furthermore, the audit          Volunteer Program (Notre Dame) for the period from
assessed whether Red Lake had adequate procedures        August 1, 1995 through September 30, 1996 (award
and controls to ensure compliance with Federal laws,     number 95ADNMD006). The procedures included
applicable regulations and award conditions and to       reviewing the audited financial statements for Notre
track and report progress toward achievement of the      Dame's fiscal year ended August 3 1, 1996,
program objectives.                                      reviewing audit programs prepared by Notre Dame's
                                                         independent auditor and determining that the
No costs were questioned as a result of the audit.       programs had been executed as planned, and
However, the audit disclosed that                        developing an exhibit of claimed costs.

     Red Lake lacked an adequate system to               The review found that
     internally evaluate the program;
     Red Lake lacked adequate controls for recording         unallowable costs were claimed in the amount
     and tracking the service hours worked by the            of $1,095 for purchasing local Program
     Members;                                                uniforms; and

     Red Lake lacked adequate controls over the              total expenditures reported on the Financial
     preparation and submission of reports;                  Status Report for the quarter ended
     the accounting records did not adequately               September 30, 1996, did not reconcile with the
     identify the source and application of finds nor        audited financial statements for the year ended
     were actual expenditures compared with                  August 30, 1996, by a difference of $ 1 3 10.
     budgeted amounts; and
                                                         In addition, we questioned $2,605 of the costs
     living allowances were paid based on an hourly      claimed under the award.
     basis rather than a stipend basis.
                                                         In its response to the report Notre Dame agreed with
In its response to the report the Red Lake Tribal        the findings but suggested an alternative presentation
Council concurred with all of the findings and           of the questioned costs for purposes of clarity. We
recommendations and stated that it would implement       revised the report adopting Notre Dame's
the recommendations.                                     suggestions.



PEER REVIEW OF THE OIG'S AUDIT SECTION
The President's Council on Integrity and Efficiency (PCIE) requires each Office of the Inspector
General to have a peer review every three years. On December 19, 1997, the Office of Personnel
Management Office of the Inspector General reported on the results of its peer review of our
audit operations. The review covered our quality control policies and procedures for fiscal year
1997. The peer review found that the Audit Section's policies and procedures were designed in
accordance with the quality standards established by the PCIE and that the Audit Section
complied with generally accepted government auditing standards in performing its work and in
monitoring the work performed by its contractors.
                   AUDIT REPORTS ISSUED DURING THE PERIOD
                    OCTOBER 1,1997 THROUGH MARCH 31,1998

                                                                             Federal          Federal
   Report      Start       Issue                                             Dollars          Dollars
   Number      Date        Date                  Report Name                Questioned      Unsupported


                                                                           (Dollars in thousands)

                                    Review of Training and Technical
                                    Assistance Agreements

                                    Audit of National Council of La Raza

                                    Audit of Children's Health Fund

                                    Audit of Urban Schools Service Corps

                                    Audit of the West Virginia
                                    Conservation and Service Corps

                                    Audit of Washington Conservation
                                    Corps

                                    Audit of Red Lake Tribal Council

                                    Review of Notre Dame Mission
                                    Volunteer Program

                                    Summary of Results of OIG Audits
                                    and Reviews of Grants, FY95 - FY97

                                    TOTAL



AUDIT RESOLUTION

During this reporting period the Corporation continued to make progress in resolving open audit
findings. In our September 30, 1997 Semiannual Report, we reported that the Corporation had
25 overdue management decision^.^ At the end of this period, the Corporation and OIG reduced
this backlog to four reports (see Table 111, Summary of Audits with Overdue Management
Decisions, page 27). The number of reports for which the Corporation has not completed final
action has been reduced from 23 to 18 (see Table IV, Reports Described in Prior Semiannual
Reports Without Final Action, page 28).



 Management decisions must be made within 6 months of issuance of an OIG report.

                                                   11
In management decisions made during this period, the Corporation disallowed $930 thousand,
or 34 percent, of the costs questioned in the reports (see Table I, Inspector General Reports with
Questioned Costs, page 25). For costs questioned by OIG due to the lack of supporting
documentation, the Corporation disallowed only 17 percent of the costs ($2 12 thousand out of
$1.3 million). In our March 3 1, 1997 Semiannual Report, we expressed our concern that the
Corporation proposed to accept supporting documentation for costs that does not meet Federal
standards. We also expressed the concern that the documentation being relied upon was not
made available during the audit or review. Documents provided after the fact, in our view, are
suspect. We reiterate our recommendation that the Corporation require grantees to support grant
costs with documentation that meets Federal standards.



              Management Decisions on OIG Reports With Questioned Costs


                                               Federal Questioned Costs
                                      Allowed                    Disallowed          Total
                                                      (Dollars in thousands)


    Overall                        $1,802      66%              $930           34%   $2,732


    Unsupported                    $1,071      83%              $212           17%   $1,283




MANAGEMENT DECISIONS WITH WHICH OIG DISAGREES

In OIG Report 97-30, Audit of the Corporation for National Service's Gift Fund, issued on
September 3, 1997, we reported that unrestricted Gift Fund expenditures exceeded the
unrestricted gift funds available by as much as $13,000 during fiscal year 1994. We also
reported that this over expenditure was, in our view, a violation of the Antideficiency Act's
prohibition on making expenditures exceeding an amount available in an appropriation or fund
(3 1 U.S.C. 1341 (a)(l)(A)), and recommended that the Corporation report an Antideficiency Act
violation as required by law (3 1 U.S.C. 1351).

In responding to our recommendation the Corporation took the position it did not violate the
Antideficiency Act because unrestricted and restricted gifts were co-mingled in one Fund, and
because the total Gift Fund expenditures did not exceed total gift funds available. The
Corporation therefore decided not to report an Antideficiency Act violation as OIG had
recommended.
We can not agree with the Corporation's decision on this point. The Antideficiency Act
prohibits Federal agencies from over expending "an amount available" in a fund. The
Corporation's position assumes that each dollar in the Gift Fund is equally available for any Gift
Fund expenditure. However, restricted gifts in the Fund were designated by the donor for a
specific purpose, and therefore were not available for unrestricted expenditures. Moreover, by
agreeing that it should establish separate accounts for its restricted and unrestricted gifts, the
Corporation implicitly acknowledges that the expenses chargeable to restricted and unrestricted
gifts must be segregated. In essence, the Corporation is asserting that its prior inappropriate
accounting practices enable it to avoid reporting an Antideficiency Act violation.

In our view, the determination of whether the Antideficiency Act was violated should be
determined based on the legal availability of the funds involved, not on how the funds were
treated within the Corporation's accounting system. In a similar context, the Comptroller
General has stated that an agency can not avoid having an Antideficiency Act violation by not
recording an obligation that it has incurred (65 Comp. Gen. 4 (1985) at page 9). In this context,
we do not believe it is proper for the Corporation to avoid reporting an Antideficiency Act
violation by failing to establish the appropriate segregated accounts for restricted and
unrestricted funds in its accounting system.
                                                               IN VESTIGATIONS

The Investigations Section is responsible for investigating violations of criminal statutes or
regulations involving Corporation employees, grantees, contractors, and other individuals
conducting business with the Corporation. The results of these investigations are referred to
Federal, State, or local authorities for criminal or civil prosecution or to the Corporation to
initiate administrative sanctions or penalties.

We began this reporting period with 1 1 previously-opened investigative actions. During the
reporting period we opened 23 new investigative actions and closed 20. We had 14
investigative actions pending at the end of this reporting period.


HIGHLIGHTS OF INVESTIGATIONS CLOSED
DURING THIS REPORTING PERIOD

Alleged Fraud and Abuse - Prosecution Declined - Referred to Management

Subsequent to receiving information from an individual alleging fraud, abuse, and
non-compliance by a former AmeriCorps sub-grantee, we conducted a preliminary inquiry and
referred the matter to the cognizant U.S. Attorney's Office and appropriate local authorities. The
U.S. Attorney and the local authorities declined to prosecute based upon the low dollar amount
of loss to the Government and the difficulty in establishing evidence of criminal intent absent
the lack of direct personal gain. The non-compliance issues (which included matters involving
supplementation of subsistence allowances, involvement in religious activities, and fund raising
activities) were referred to Corporation management in September 1996. (96-03 1)


Improper Education Award Certification - Referred to Management

Subsequent to receiving information that an AmeriCorps Member's End of Term of Service
Form submitted to the National Service Trust Fund (Trust Fund) by his AmeriCorps program,
certifying completion of 1,700 hours of AmeriCorps service, may have been inaccurate, we
conducted an inquiry. Our inquiry established evidence to indicate that a certifying official at
the ArneriCorps program improperly credited service hours earned by four former AmeriCorps
Members to four AmeriCorps Members recruited to replace the four who departed. The
certifying official then certified that the replacement AmeriCorps Members completed 1,700
service hours as full-time AmeriCorps Members and were eligible for full-time education
awards.
The cognizant Assistant U.S. Attorney (AUSA) opined that the certifying official did not violate
18 USC 1001 because she did not attempt to conceal her actions and lacked a motive to profit
from the act. The AUSA fbrther opined that the former AmeriCorps Member who received a
full education award did not violate 18 USC 641 because there was nothing to indicate he
intended to defraud the Corporation's Trust Fund. We referred this matter to Corporation
management for corrective action.

We received a memorandum from the Corporation's Chief Financial Officer regarding the action
taken by management as a result of the improper certification of eligibility described above. The
memorandum states that Trust Fund records related to the three AmeriCorps Members who had
not used their education award were corrected by reducing their eligibility status from "full-time"
award ($4,725.00) to "part-time" award ($2362.50). The memorandum adds that the ArneriCorps
project sponsor was directed by the State Commission to reimburse the Trust Fund $2,362.50
(the difference between a "full-time" education award and a "part-time" award) to correct the
disbursement of a "full-time" award to the fourth AmeriCorps Member who was eligible to
receive only a "part-time" award. This represents a savings of $9,450.00 - a cost avoidance of
$7,087.50 and a recovery of $2,362.50 (see Table 11, Inspector General Reports With
Recommendations That Funds Be Put To Better Use, page 26). (97-023)


Alleged Ethics Violation and Travel Abuse - Referred to Management

Subsequent to receiving an anonymous letter alleging that a senior Corporation employee
accepted a gift from the employee's subordinates, consisting of an airline ticket for the employee
to travel to the employee's home during the Christmas holiday period, and that the employee has
used airline tickets purchased by the Corporation to travel between Washington, D.C. and the
employee's home, we initiated a preliminary inquiry. The employee provided a written, sworn
statement denying the allegations and we found insufficient evidence to support the allegations.

During the course of our inquiry however, we noted some Corporation practices regarding
official travel that we felt should be brought to Corporation management's attention. These were
practices that, while not clearly prohibited or maybe not even improper, could be conducive to
fraud, waste, or abuse, or create a perception of abuse.

In less than three years we have conducted seven inquiries that involved allegations of travel
fraud, or as was more often the case, some form of travel abuse. During each of these inquiries
there seemed to have been a common thread, namely that Corporation employees, both travelers
and managers charged with the responsibility to perform the first-level review of their
subordinate's travel, were not familiar with the Federal Travel Regulations and Corporation
travel procedures, nor were they always sensitive to the perceptions that could be created by less
than fully explained reimbursements for travel.
During the inquiry described above, we found, and reported to Corporation management, the
following conditions related to the employee against whom the allegations were made

   More than 20% (10 of 45) of the paid travel claims on file with the Corporation's Office of
   Financial Operations, were for travel to or through (with an overnight stay) the city in which
   the traveler maintained a permanent residence (where the traveler's spouse and children
   resided).

   Claims for travel reimbursement that included meals and incidental expenses (M&IE) were
   submitted and paid for travel to the traveler's permanent residence (where the traveler's
   spouse and children resided).

   A claim for travel reimbursement was submitted and paid although the claimed travel
   locations and dates did not agree with dates and locations on attached airline tickets.

   Administrative assistants prepared travel claims incorrectly for the traveler and the traveler
   signed the voucher with little or no review.

   Claims for travel reimbursement were submitted and paid that had no documentation or
   explanation attached to support how the traveler traveled between distant duty locations.

   A claim for travel reimbursement showing arrival at a hotel on the first day of travel and
   departure from the hotel on the last day of travel was submitted and paid. Yet there was no
   claim or receipt for lodging, nor was there an explanation for not claiming lodging expenses
   and attaching a receipt.

   A claim for reimbursement was submitted and paid that appeared to include round-trip travel
   by automobile between two cities that were 88 miles apart. Attached to this claim with no
   explanation was a rental car agreement that reflected the rental car was driven only 4 1 miles,
   or less than half the one-way distance between the two cities.

   A claim for travel reimbursement submitted and paid had attached to it an altered receipt for
   lodging.

    Claims for travel reimbursement were submitted and paid although they sometimes claimed
    travel to locations not listed on the attached travel authorizations.

    The traveler, at the time a very senior Corporation employee of almost four years, claimed,
    in a written, sworn statement, that she had received no training regarding Federal travel.
We felt the aforementioned conditions should have been detected by management and corrected
by the traveler prior to claims being submitted for reimbursement. In light of our observations,
we recommended that Corporation management

   Provide employees scheduled, recurrent training on Federal Travel Regulations and
   Corporation procedures.

   Identify employees (to include managers responsible for review and approval of travel
   vouchers) unfamiliar with Federal Travel Regulations and Corporation procedures and
   schedule these employees for training or retraining as necessary.

   Increase the review of travel claims submitted for reimbursement and require that employees
   who continually submit erroneous travel claims attend training.

    Place more information regarding Federal travel on the Corporation intranet and place it in
    a location that is more obvious and more accessible than the information that is currently
    presented.

We received a memorandum from the Corporation's Chief Operating Officer regarding the
action taken by management as a result of our inquiry described above. The memorandum stated
that the Corporation expected to provide travel training in May for select staff and further stated
that accounting staff were identifying individuals who make repeated mistakes on travel
vouchers in order to schedule them for this training. Attached to the memorandum was a draft
travel manual the Corporation intends to publish in late April. (98-005)


                                                    -
Misuse of Corporation Federal Express Service Referred to Management

Subsequent to receiving an anonymous note and other documents alleging misuse of
Corporation-paid Federal Express service, we conducted an inquiry. We identified a Corporation
contractor's employee as the individual whom we believed used Corporation-paid Federal
Express service for personal business. During our inquiry we also learned that there were
possibly as many as three automated Federal Express shipping stations located throughout the
Corporation, not under the control of the Corporation mail room, that were accessible by anyone
having access to Corporation-leased space. There appeared to be few, if any, controls over who
could use these machines, and no reliable or accurate method to assess charges for their use to
specific Corporation budget holders or individuals. We reported this information to Corporation
management.

We received a memorandum from the Corporation's Director of Grants Management, through
the Corporation's Chief Financial Officer, regarding the action taken by management as a result
of the misuse of Corporation-paid Federal Express service described above. The memorandum
stated the contractor's employee that we identified is no longer employed by the contractor and
has sent the Corporation a check for $3.61 as reimbursement for use of the Federal Express
service. The memorandum also stated that the contractor has sent all contractor employees an
email message reminding them of the prohibition on the use of government services for personal
use. Corporation management declined to secure or control the use of the automated Federal
Express shipping machines, stating they felt this was a rare misuse of Federal Express.
Management added that they would examine establishing keyed identification access. (98-006)


Misuse of Corporation Mail - Referred to Management

Subsequent to learning that personal mail was found in a Corporation envelope returned to the
mail room as undeliverable and that the envelope bore metered postage charged to the
Corporation, we conducted an inquiry. We identified a Corporation contractor's employee
working as an administrative assistant for AmeriCorps*VISTA as the individual most likely to
have used government mail for personal use. We interviewed the contractor's employee and she
provided a sworn, written statement wherein she admitted using government mail to send a
personal birthday greeting to an acquaintance. We referred the matter to Corporation
management.

We received a memorandum from the Corporation's Chief Financial Officer, regarding the
action taken by management as a result of the misuse of Corporation mail described above. The
memorandum stated that the contractor's employee was given a Memorandum of Warning
emphasizing the impropriety of her conduct and warning that continued misconduct could result
in additional disciplinary action. The memorandum also stated that the contractor's project
manager had sent an email message to all contractor employees that reminded them of the
prohibitions on the misuse of g o v e m e n t property. The memorandum concluded by stating that
as a result of this inquiry and the inquiry above (98-006)' a memorandum was sent to all
Corporation employees reminding them that unauthorized use of Corporation resources was
improper and illegal. (98-0 19)
                     STATISTICAL SUMMARY OF INVESTIGATIONS


Opened and Closed
Number of Cases Open at Beginning of Reporting Period..............................


Number of New Cases Opened During This Reporting Period.......................


Number of Cases Closed During This Period With
 . .         . .
Significant Findmgs .........................................................................................


Number of Cases Closed During This Period With
                ,  .
No Significant Findings ...................................................................................


Total Cases Closed This Reporting Period......................................................


Number of Cases Open at End of Reporting Period........................................
Referred
Number of Cases Referred for Prosecution During
This Reporting Period ......................................................................................


Number of Cases Accepted for Prosecution During
This Reporting Period ......................................................................................

Number of Cases Declined for Prosecution During
This Reporting Period ......................................................................................


Number of Cases Pending Prosecutive Review...............................................
            RE VIEW OF LEGISLATION & REGULATIONS

Section 4(a)(2) of the Inspector General Act directs the Office of the Inspector General to review
and make recommendations about existing or proposed legislation and regulations relating to the
Corporation's programs and operations. The OIG recommendations, which we are to include
in our Semiannual Reports, should specifically address the impact of the legislation and
regulations on the economy and efficiency of the administration of the Corporations' programs
and operations. The OIG is also to make recommendations in its Semiannual Reports
concerning the impact of the legislation and regulations on the prevention and detection of fraud
and abuse in programs and operations administered or financed by the Corporation.


REAUTHORIZATION OF CORPORATION PROGRAMS

As discussed in our Semiannual Report to the Congress for the period of October 1, 1996 to
March 3 1, 1997, the authorizing statutes for the Corporation's programs, the National and
Community Service Act of 1990, as amended, and the Domestic Volunteer Services Act of 1973,
as amended, are due to be reauthorized. During November of 1997, the Corporation publicly
released its proposed draft of a reauthorization bill. On March 19, 1998, the President
transmitted a revised draft reauthorization bill to the Congress, and on March 26, 1998, "National
and Community Service Amendments Act of 1998" was introduced in the House of
Representatives as bill number H.R. 3561.

During this semiannual reporting period, we were asked by an interested Congressional staff
member to review the Corporation's proposed draft legislation to comment on a number of
points, and to address any other issues raised by our past work that would be impacted by the
draft legislation. We provided our views on these matters to the Congressional staff member and
to the Corporation. Our significant comments on the National and Community Service
Amendments Act of 1998 are summarized as follows.

Increasing Opportunitiesfor 'Education Award Only "Programs

To help lower the average Federal cost of AmeriCorps members and VISTA program
participants, the National and Community Service Amendments Act of 1998 would authorize
additional funds for so-called "Education Award Only" programs. These are programs that offer
AmeriCorps members the opportunity to earn post-service education benefits from the National
Service Trust Fund, but that receive either a very limited amount (no more than $1,000 per
AmeriCorps member) or no operational funding from the Corporation. The Act would also
authorize the Corporation to make these limited support grants on a fixed-amount basis where
the Corporation could waive statutory requirements that would otherwise apply to its grants.
In our comments on the National and Community Service Amendments Act of 1998, we
suggested that

    the Corporation consider establishing some system of oversight for its "Education Award
    Only" programs to provide reasonable assurance that the performance data from those
    programs are accurate and reliable; and
    because these "Education Award Only" programs may represent a model approach for
    national service programs in the future, the Corporation and the Congress consider including
    in the National and Community Service Amendments Act of 1998 a mandate to evaluate the
    impact of these programs.

Administration of the National Service Trust
The National and Community Service Amendments Act of 1998 would also make several
changes to the administration of the National Service Trust, including: making h d s in the Trust
available to pay for new expenses, including the Federal costs (limited to $500 per award) for
National Service Scholarships and the costs of administering the Trust; making eligibility for a
Post-Service Education Benefit contingent upon a number of "certifications"' made by grantee
officials (rather than Corporation officials); providing a statutory basis for the Corporation's
current administrative practice of relying upon officials from the grantee organizations to
determine whether the AmeriCorps member left for "compelling personal circumstance^;"^ and
expanding the allowable uses of Post-Service Education Benefits, including schools meeting the
GI Bill requirements.

In our comments on the National and Community Service Amendments Act of 1998, we
suggested
    Congress not make the Trust available for new expenditures until the Corporation can
    accurately identify the full extent of its current liability for Post-Service Education Benefits
    earned by AmeriCorps Members and VISTA participant^;^


'Including certifications that the AmeriCorps member or VISTA participant was eligible and appropriately enrolled
in the National Service Trust Fund, and that the individual successfully completed his or her service requirement,
or satisfactorily performed his or her service before being released for compelling personal circumstances.

8 ~ m e r i ~ o rMembers
                 ps      leaving for compelling personal circumstances are eligible to receive a pro-rated education
award.

  In OIG Report 97-27, Audit of the National Service Trust Fund Fiscal Year 1995 and 1994 Financial Statements,
OIG's auditors were unable to express an opinion on the Trust Fund's financial statements because the Corporation
did not maintain reliable records regarding its liability for post-service education benefits that the Trust will be
required to pay. Until the Corporation is able to produce and maintain auditable information to support the amount
of this liability, the Corporation and the Congress will not have reliable information about the extent of any surplus
within the Trust Fund that would be safely available for additional Trust Fund expenditures.
   Congress delay making the Trust Fund available for its own administrative expenses until
   the Corporation can produce reliable cost accounting information, and those costs are
   independently assessed as being reasonable;

   adding to the draft legislation specific (and verifiable) criteria for programs to apply in
   making those determinations when an AmeriCorps member has been released "for
   compelling personal circumstances;" and

   requiring both the AmeriCorps member and an official from the grantee organization (or a
   VISTA participant and their supervisor) to certify that they meet the statutory requirements
   for receiving a Post-Service Education Benefit from the Trust Fund.

Finally, with regard to the increased uses of Post-Service Education Benefits, we suggested that
the Corporation consider the experience of the Department of Education in administering student
loans to proprietary schools, and establish management controls to deal with the additional risks
such an expansion will create, before expanding the availability of Post-Service Education
Benefits to such schools.

Corporation Authority to Waive Statutory Requirements

In two separate provisions, the National and Community Service Amendments Act of 1998
would grant the Chief Executive Officer broad authority to waive many of the statutory
requirements applicable to National and Community Service Act programs. In both sections,
the waiver or alternative requirements are conditioned upon the CEO's determination that the
action will further the purposes of the national service laws. In addition, both provisions would
make certain requirements non-waivable, including the prohibitions on AmeriCorps members
or Corporation funds being used for political or religious activities.

In our comments on the National and Community Service Amendments Act of 1998, we
suggested that, due to substantial discretion that these provisions would give the Corporation,
the Congress may want to incorporate requirements that will facilitate oversight of the use of this
authority, such as delaying the effective date of any waivers until 30 days after Congress is
notified of the proposed action.


REVIEWS OF CORPORATION DRAFT REGULATIONS AND
PROGRAM GUIDANCE

Review of Draft Regulations

During this semiannual reporting period, the Corporation provided to OIG for comment draft
proposed amendments to the Corporation's regulations implementing the five percent cap on the
Federal reimbursement of grantee administrative costs. Under the National and Community
Service Act, 45 U.S.C. Section 12571(d), no more than five percent of the Corporation funding
made available to AmeriCorps and Learn and Serve grantees in a fiscal year may be used to
reimburse "administrative costs." The Corporation had defined the costs subject to this cap in
its regulations, and had provided guidance to grantees on how the cap would apply to their grant
budgets. However, in a number of our audits and reviews of AmeriCorps grantees in their first
few years of operations, OIG found that some grantees were including costs (principally
personnel costs) that were administrative in nature in other portions of their grant budgets. In
our view, these misclassifications resulted in grantees receiving Federal fund reimbursements
in excess of the five percent limit on administrative expenses.

In attempting to resolve these audit findings, the Corporation and OIG agreed that a principle
cause of the issue was that the guidance given to grantees during the negotiation of their final
budgets was at variance with the Corporation's regulations on the five percent administrative
cost cap. Accordingly, the OIG and the Corporation agreed to resolve these audit issues by
clarifying the Corporation's regulations, and that the grantees would not be held responsible for
any excess reimbursements they received because of conflicting guidance.

After extensive discussions between the OIG and the Corporation on the best approach to take
in implementing the five percent cap, the Corporation developed draft amendments to its
regulations. On March 12, 1998, the Corporation provided the draft regulations to the OIG for
comment. On March 24, 1998, OIG provided the Corporation with a number of comments and
suggestions for improvement that, in our view, would make the implementation of the five
percent cap clearer for the Corporation, Corporation-funded programs, and auditors of those
programs. On April 3, 1998, OIG was notified that the Corporation had accepted most of our
suggestions.


Reviews of Other Corporation Guidance

Section 4(a)(2) of the Inspector General Act only requires OIG to review the Corporation's
existing and proposed regulations. However, the Corporation has adopted the practice of using
less formal means than regulations to impose requirements, issue instructions, and provide
guidance to its grantees. These more informal means (including Notices of Funds Availability,
Policy Statements, Program Guidelines, Grant Application Instructions, Grant Provisions,
Updates, Memoranda and other documents) often affect the Corporation programs and grantee
operations as significantly as regulations included in the Code of Federal Regulations.
Accordingly, OIG has asked Corporation management to give OIG the opportunity to review and
comment on all documents intended to set or reiterate policies regarding the Corporation's
programs and operations. Between October 1, 1997 and March 3 1, 1998, OIG reviewed a
number of Corporation policy-setting documents including the guidelines and application
instructions for the AmeriCorps and Learn and Serve grants. While OIG made a number of
comments on these documents for the Corporation to consider, the reviews of these documents
did not result in any significant recommendations. As required under section 4(a)(2) of the
Inspector General Act, OIG will continue reviewing these draft policy-setting documents and
will include significant recommendations in future Semiannual Reports.


OTHER OIG INITIATIVES TO IMPROVE MANAGEMENT

In its reviews of the Corporation's operations, the OIG has noted that the Corporation has
sometimes taken positions on the availability of Corporation appropriations or funds that raise
questions about whether Corporation actions are consistent with appropriations law. For this
reason, the Inspector General decided to have all the professional OIG staff attend training in
Federal agency appropriations law. Further, the Inspector General, as a proactive effort to
promote economy and efficiency in the Corporation's programs, as well as to prevent abuse of
the Corporation's appropriated funds, also suggested to the Corporation that its senior
management officials would also benefit from such training. The Corporation agreed, and the
OIG arranged for a training program to address both of these needs.

After researching available training classes for OIG and Corporation staff, OIG arranged for the
Office of General Counsel and the Training Institute of the U.S. General Accounting Office to
present their Principles of Appropriations Law course at the Corporation. Because of the
Corporation's interest in obtaining appropriations law training, we were able to arrange a training
class tailored to the issues most relevant for the Corporation. The class was offered at the
Corporations Headquarters on February 3"1and 4th1998, and was attended by OIG professional
staff and by senior staff from all areas of operation of the agency, including the Chief Operating
Officer, the Chief Financial Officer, the Directors of AmeriCorps, the National Senior Service
Corps, and Learn and Serve, and the General Counsel.
                         TABLE I
     INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS

                                                               Federal Costs
                                                 Number   Questioned      Unsupported

                                                             (Dollars in thousands)


1.   For which no management decision had
     been made by the commencement of the
     reporting period                             22

2.   Which were issued during the reporting
     period                                       -
                                                  5


3.   Subtotals (1 plus 2)                         27


4.   For which a management decision was
     made during the reporting period             19


     (i) dollar value of disallowed costs

     (ii) dollar value of costs not disallowed    -


5.   For which no management decision had
     been made by the end of the reporting
     period (3 minus 4)                           8
                                                  -




6.   Reports with questioned costs for which
     no management decision was made within
     six months of issuance                         3        $353
                          TABLE I1
     INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE

                                                       Number   Dollar Value


A.   For which no management decision had been
     made by the commencement of the reporting
     period


B.   Which were issued during the reporting period


C.   For which a management decision was made
     during the reporting period


      (i) dollar value of recommendations that were
          agreed to by management


          - based on proposed management action


          - based   on proposed legislative action


      (ii) dollar value of recommendations that were
           not agreed to by management


D.    For which no management decision has been
      made by the end of the reporting period
      Reports for which no management decision was
      made within six months of issuance
                        TABLE I11
  SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                              Federal               Mgmt      Status as of
Report                                                        Dollars              Decision   March 31,
Number                          Title                        Questioned             Due*         1998

                                                          (Dollars in thousands)

97-02      Audit of the Oregon Youth
           Conservation Corps                                      $280
97- 12     Review of the National Alliance for
           Veteran Family Service
           Organizations                                               11
97-2 1     Review of the Enterprise Foundation                         62
97-22      Audit of the American Conservation
           and Service Corps                                         0

           Total                                                   $353

* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within 6 months of the final report issuance.


Status

1 - Management Decision overdue.

2 - Under the Corporation's audit resolution policy, an Audit Resolution Committee proposes resolution
of recommendations made in audit reports. For these two reports, the Audit Resolution Committee
reached agreement on the issues; however, as of March 3 1, 1998, the decisions had not been documented,
approved, and conveyed to the grantee.
                              TABLE IV
                REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                       REPORTS WITHOUT FINAL ACTION

                                                       Final
Report                                         Date    Action       Status Of
Number                     Title              Issued   Due*        Final Action

For which there is no management decision

97-02     Audit of the Oregon Youth                             Management
          Conservation Corps                                    Decision is
                                                                overdue (due
                                                                6/22/97)
For whichfinal action has not been reported

          Review of the New Orleans                             Final Action
          Youth Action Corps                                    has not been
                                                                completed andor
                                                                reported to OIG

          Review of the Border Volunteer                            .. ..
          Corps
          Review of the National AIDS                                .. ..
          Fund
          Review of the Home Instruction                             ,.    3 .




          Program for Preschool
          Youngsters
          Audit of the Greater Miami                                 7 .   ..
          Service Corps
          Audit of ACORN Housing                                     .. ..
          Corporation
          Review of the National Council                             .. ..
          on Educational Opportunities
          Pre-Audit Survey of CNS Grants                             ,. .,
          Process
          Pre-Audit Survey of CNS                                    .. ..
          Procurement Process
          Audit of CNS Fiscal Year 1994                              .I    ..
          Financial Statements
                               TABLE IV
                 REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                     REPORTS WITHOUT FINAL ACTION

                                                                         Final
Report                                                    Date           Action           Status Of
Number                       Title                       Issued           Due*           Final Action

           Report on the Results of the                 3/29/96        3/29/97
                                                                                           .. ..
           Auditability Study
           Audit of PennSERVE                          11/25/96        11/25/97
                                                                                           1. ..
           Review of Kansas City                        1/27/97         1/27/98
                                                                                           .. ..
           Consensus
           Review of YouthNet of Greater                3/10/97         3/10/98            7 .   ..
           Kansas City
           Review of Legal Service                      3/14/97         3/14/98            7 .   .,
           Corporation
           Follow-up Study to the                       12/9/96         12/9/97            ..    1,




           Auditability Survey (Report 1)
           Audit of the National Service                3110197         3110198            .. .,
           Trust Fund Fiscal Year 1995 and
           1994 Financial Statements




*For reports issued before February 10, 1996 (Report Numbers 96-04 and 96-05), final action must be
completed within 18 months of the issuance of the report, as established in the regulations of ACTION,
the Corporation's predecessor agency. For reports issued after that date, final action must be completed
within 12 months of the report's issuance, as established under section 6009 of the Federal Acquisition
Streamlining Act, Public Law 103-355, as amended.
                             TABLE V
              STATUS OF RECOMMENDATIONS ON INTERNAL
                  CORPORATION MANAGEMENT ISSUES

                                                   Number of      Corrective
                                                Recommendations     Action          Open
                                                   in Reports     Completed    Recommendations

Corporation Operations and
Financial Management
 Auditability Survey & Follow-up Reports
 (OIG Audit Reports 96-38,97-09, and 97-29)

 Improper Education Award Certification
 (OIG Investigation 97-023)

 Alleged Travel Abuse
 (OIG Investigation 98-005)
 Misuse of Corporation Resources
 (OIG Investigations 98-006 and 98-0 19)

Trust Fund Operations

 Audit of National Service Trust Fund Fiscal
 Year 1995 and 1994 Financial Statements
 (OIG Audit Report 97-27)
 Recommended Improvements to National
 Service Trust Fund Operations
 (OIG Audit Report 97-3 1)

Training and Technical Assistance

 Review of Training and Technical Assistance
 (OIG Audit Report 98-0 1)

Gifi Fund Operations

 Audit of the Corporation for National
 Service's Gift Fund (OIG Audit Report 97-30)

Audit Resolution

 OIG FY97 Semiannual Report 1

    Total
               CORPORATION FOR NATIONAL SERVICE


  OFFICE OF INSPECTOR GENERAL

       I         HOTLINE                  - -   -   -
                                                                      1
                            Concerned Citizens!

           CNS Employees!                       Grantee Employees!

ArneriCorps Members!                                    Senior Corps Volunteers!




             Report suspected fraud, waste or           abuse.
                       + All information is confidential.
                       + You may remain anonymous.


                                   Or write:

                             OIG HOTLINE
                    Corporation for National Service
                1201 New York Avenue N.W. Suite 8100
                       Washington, D.C. 20525
